Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




      Clinical Performance Measures
           for Dialysis Facilities

          Building on the Experiences
          of the Dialysis Corporations




                       JANET REHNQUIST
                     INSPECTOR GENERAL

                         JANUARY 2002
                        OEI-01-99-00052
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston office prepared this report under the direction of Mark R. Yessian Ph.D., Regional
Inspector General and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector General.
Principal OEI staff included:

BOSTON                                                   HEADQUARTERS

Aimee K. Golbitz, Lead Analyst                           Bambi D. Straw, Program Specialist
Norman J. Han, Program Analyst

         To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                        http://oig.hhs.gov/oei/
                         EXECUTIVE                              SUMMARY
PURPOSE AND BACKGROUND

          To present lessons learned by the five largest dialysis corporations in using clinical
          performance measures to hold facilities accountable for the quality of care and to address
          the implications they have for the Centers for Medicare & Medicaid Services (CMS).

          This is the main report in the series Clinical Performance Measures for Dialysis Facilities.
          The two supplemental reports are (1) Practices of the Major Dialysis Corporations, and
          (2) Lessons Learned by the Major Dialysis Corporations and Implications for Medicare.

LESSONS LEARNED BY THE CORPORATIONS

Below are the lessons the corporations told us they have learned in using performance data.
     < Look to medical directors to exert sustained leadership.
     < Secure the commitment of attending physicians.
     < Collect a broad set of measures and revisit their relevance regularly.
     < Establish minimum performance standards and goals for all facilities to aim towards.
     < Apply strict definitions to performance measures and check their accuracy regularly.
     < Disseminate timely, comparative feedback of performance data.
     < Stress quality improvement projects at the facility level.
     < Use performance data as a guide to possible performance problems.

OUR RECOMMENDATIONS TO MEDICARE

Revise the Medicare Conditions for Coverage. The revised Conditions should (1) require
facility medical directors to exert leadership in quality improvement, and (2) require dialysis
facilities to conduct their own quality improvement projects.

Examine ways to foster the commitment of attending physicians to performance measures.
CMS should (1) conduct educational forums that emphasize the importance of performance
measures, (2) examine the possibility of physician-specific report cards, and (3) focus greater
attention on the responsibilities of physicians.

Develop more effective intervention strategies for facilities. CMS should foster greater
collaboration between its two oversight agents, the End-Stage Renal Disease Networks and the
States, and address the confidentiality and liability concerns that impede such integrated efforts.

Work with the corporations to share experiences and minimize burdens on dialysis
facilities. Both CMS and the dialysis corporations have similar concerns about improving care.
More sharing of experiences could be helpful to both parties, and, most importantly, to patients.


Dialysis: Building on the Experiences of the Corporations   i                        OEI-01-99-00052
                                               COMMENTS
          We received written comments on the draft report from the CMS, the Forum of End-
          Stage Renal Disease Networks, Renal Physicians Association, National Renal
          Administrators Association, and the five corporate dialysis providers that were the focus
          of our inquiry. Their comments were strongly supportive of the lessons we presented and
          of the thrust of the recommendations we made to CMS. We include the full text of the
          comments in appendix C of the second supplemental report, Clinical Performance
          Measures for Dialysis Facilities: Lessons Learned by the Major Dialysis Corporations
          and Implications for Medicare (OEI-01-99-00054). On the basis of the comments, we
          made a number of clarifications and technical changes. Below, we briefly summarize their
          comments and our responses to them.

          Medical Director Leadership. CMS supported our recommendation that the Medicare
          Conditions for Coverage be revised to require medical directors to exert leadership in
          quality improvement. The dialysis corporations and the other commenters also
          underscored the importance of such leadership, but to varying degrees raised concerns
          about how it might be defined in the Medicare Conditions. They urged that leadership
          expectations be in accord with the real world in dialysis facilities. Their comments
          reinforce the importance of CMS clearly establishing the medical director’s authority and
          responsibility to provide leadership if it expects performance measures to be instrumental
          in improving care in dialysis facilities. At the same time, the comments suggest the value
          of collaboration between the corporations and CMS in further defining the leadership role
          of medical directors.

          CMS and other respondents supported our recommendation that medical directors be
          given authority to conduct or initiate peer review of attending physicians. But they were
          clearly wary of our recommendation that when patients are put at risk because of
          substandard medical care, the medical director should report the physician to an
          authoritative body, such as the facility’s governing board, the End-Stage Renal Disease
          Network, or the State medical board. We suggest that this is a vital patient protection
          responsibility that must be part of the purview of the medical director and that CMS
          should address it as part of its efforts to foster quality dialysis care.

          Securing the Commitment of Attending Physicians to Performance Measures. This
          is a vital matter having a significant bearing on the successful use of performance
          measures. CMS expressed its readiness to consider the measures we called for. Other
          respondents were supportive of convening educational forums. But some raised concerns
          with the use of physician-specific reports (which are already being used by at least one
          End-Stage Renal Disease Network and by two dialysis corporations) and with the
          establishment of more explicit Federal standards or requirements concerning the
          performance of attending physicians. We recognize that these are difficult issues, but
          suggest that they warrant careful examination as means of more fully engaging attending
          physicians in quality improvement efforts.


Dialysis: Building on the Experiences of the Corporations   ii                       OEI-01-99-00052
                          TABLE                         OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


CORPORATE PRACTICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


LESSONS LEARNED BY THE CORPORATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Look to Medical Directors to Exert Sustained Leadership . . . . . . . . . . . . . . . . . . . . . . . 4

          Secure the Commitment of Attending Physicians . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Collect a Broad Set of Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Revisit the Relevance of the Measures Regularly . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Establish Minimum Performance Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          Develop Performance Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          Apply Strict Definitions to Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          Check the Accuracy of Performance Data Regularly . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          Minimize the Data Reporting Burden . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          Present Performance Data in Ways That Facilitate Comparative Assessment . . . . . . . . . 7

          Provide Timely Feedback of Performance Data to Dialysis Facilities . . . . . . . . . . . . . . . . 7

          Stress Quality Improvement Projects at the Facility Level . . . . . . . . . . . . . . . . . . . . . . . . 7

          Use Performance Data as a Guide . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          Intervene with Facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


RECOMMENDATIONS FOR MEDICARE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Revise the Conditions for Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Foster the Commitment of Attending Physicians . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          Develop More Effective Intervention Strategies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          Work with the Dialysis Corporations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Appendix A: Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          Appendix B: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13





Dialysis: Building on the Experiences of the Corporations         iii                                            OEI-01-99-00052
                                       INTRODUCTION

PURPOSE

          To present lessons learned by the five largest dialysis corporations in using clinical
          performance measures to hold facilities accountable for the quality of care and to address
          the implications these lessons have for the Centers for Medicare & Medicaid Services,
          formerly the Health Care Financing Administration.

BACKGROUND

          In our report, External Quality Review of Dialysis: A Call for Greater Accountability, we

          urged the Centers for Medicare & Medicaid Services (CMS) to use facility-specific clinical

          performance measures as a key part of its oversight of dialysis facilities. Clinical

          performance measures are quantitative indicators, typically expressed as a percentage, that

          reflect the quality of care patients received. CMS concurred with the directions we

          suggested and presented a detailed action plan to strengthen its use of performance

          measures. Since then it has been active in carrying out this plan.


          In this follow-up inquiry, we examine the practices of the five largest dialysis corporations

          in using clinical performance measures to hold their own facilities accountable for the

          quality of care. We regard such an inquiry as important because:

          (1) these corporations account for about 70 percent of all dialysis patients in the United

          States, the vast majority of whom are Medicare beneficiaries, and represent over 2,000

          facilities, (2) they have a substantial body of experience in using performance measures,

          and (3) they have gained know-how that can be helpful to CMS and others.1


          This report is the main report in our series on Clinical Performance Measures for Dialysis

          Facilities. In addition to this report there are two supplemental reports. The first

          supplemental report, Practices of the Major Dialysis Corporations (OEI-01-99-00053),

          describes the processes the corporations have to collect and use performance measures. 

          The second supplemental report, Lessons Learned by the Major Dialysis Corporations

          and Implications for Medicare (OEI-01-99-00054), presents 14 lessons the corporations

          have learned in using performance measures and presents our recommendations to CMS

          as it further develops its own system to use performance measures. All three reports are

          based on our review of corporate documents, interviews with corporate medical directors,

          and site visits to several dialysis facilities. The information contained in this report was

          self-reported by the dialysis corporations. We did not audit or validate the data the

          corporations collect from their facilities.


          We conducted this study in accordance with the Quality Standards for Inspections issued

          by the President’s Council on Integrity and Efficiency.




Dialysis: Building on the Experiences of the Corporations   1                          OEI-01-99-00052
              Table 2. Comparison of the Dialysis Corporations’ Practices in Collecting
                      and Using Facility-Specific Clinical Performance Measures
                                                        Company        Compan         Compan            Compan         Compan             CMS
                                                          #1              y             y                 y              y
                                                                         #2             #3                #4             #5
Years of experience in collecting facility-specific         10+           20+             10+               20+             5              10+
performance measures

Percentage of patients within a facility for which         100%          100%            100%             100%*           100%           All
measures are collected                                                                                                                 Medicare
                                                                                                                                       Patients

Data collected electronically from dialysis                  no            no             yes               no             yes             no
machine

Data submitted electronically from the facility              yes          yes             yes               yes            yes             no

Data collected electronically from labs                      yes           no             yes               yes            no              no

Frequency of data collection                              monthly       monthly            by            monthly        monthly           varies
                                                                                       treatment

Frequency of dissemination of facility-specific           monthly       quarterly       monthly          quarterly      monthly        annually
performance reports

Age of data by time it is disseminated                   less than 4   1 day to 12     1-3 weeks        6-7 weeks       4 weeks        ~3 years
                                                           weeks         weeks

Main format for facility-specific reports                 intranet      intranet        intranet        intranet and   intranet and   internet and
                                                                                                            mail           mail           mail

Compares the facility to its region                          yes          yes             yes               yes            yes             yes

Compares the facility to the past                            yes          yes             yes               yes            yes             yes

Compares the facility to the company                         yes          yes             yes               yes            yes            NA**

Compares the facility to the entire nation                   yes          yes             yes               yes            yes             yes

Compares the facility to a minimum standard                  yes          yes             yes               yes            yes             yes

Compensation for the facility medical directors is           no            no              no               yes            yes            NA**
tied to performance measures

Facility-specific clinical performance measures              no            no              no               no             no             some
are routinely publicly available

Provide physician-specific reports                           yes           no             yes               no           yes***            no

*except for patients in managed care plans, **not applicable, *** only for facility medical directors




           Dialysis: Building on the Experiences of the Corporations      3                                             OEI-01-99-00052
                LESSONS LEARNED BY THE
                    CORPORATIONS
Lesson 1. Look to medical directors to exert sustained leadership.

          Corporations look to their medical
                                                                 The Role of the Facility Medical Directors and
          directors to exert leadership in two
                                                                              Attending Physicians
          key ways. One is to lead by example.
          Since the medical directors typically                 Medical Directors. The Medicare Conditions for
          account for a majority of a facility’s                Coverage require each facility to have a physician
          patients, such leadership by example is               who serves as a medical director who is responsible
          of no small consequence. The other                    for “planning, organizing, conducting, and directing
                                                                the professional [end-stage renal disease] services.”
          dimension is to ensure sustained                      Corporations contract with local physicians to serve
          attention in the facility to the                      in this capacity. For facilities that are not part of a
          improvement opportunities that                        corporate chain, the facility owner and medical
          performance measures can offer. The                   director can be the same person. In addition to their
          corporations expect the medical                       medical director duties, these physician directors
                                                                have their own patients that can make up the
          directors to serve as the primary on-
                                                                majority of patients at a facility. It is not uncommon
          site agents to implement the corporate                for a medical director to also be an attending
          initiatives concerning the collection                 physician at another facility regardless of the
          and use of measures.                                  ownership.

          The medical directors’ contracts spell       Attending Physicians. Dialysis facilities allow
                                                       local physicians to send their patients to them for
          out their leadership responsibilities.
                                                       treatment. Attending physicians may send patients
          These contracts include the                  to several facilities that may be owned by several
          responsibilities required by the             different corporations or entities. The physicians are
          Medicare regulations as well as outline      not contractors or employees of the facility or the
          additional responsibilities required by      corporation, and their privileges can be revoked if
                             2
          the corporations. Among the                  they do not adhere to the facility’s policies.
          contracts that we reviewed, we saw
          specifications that medical directors
          review their facilities’ performance measures monthly, attend regular training or meetings
          concerning quality improvement, and address attending physicians who are not performing
          adequately. Two of the corporations even include in their contracts a provision indicating
          that a portion of the medical director’s salary is contingent on how well their facilities
          fared on various clinical performance measures.

          The corporate officials disagreed about how fully they are able to hold facility medical
          directors accountable for exerting leadership. Some stated that they had all the authority
          they needed through their contracts with facility medical directors. For them, it was
          simply having the will to enforce their contracts. Others drew attention to the limited
          leverage that the medical directors themselves have over the attending physicians who,
          unlike medical directors, do not have contractual obligations to the facility or the
          corporation and who often have patients at various facilities.3 The Medicare Conditions

Dialysis: Building on the Experiences of the Corporations   4                                          OEI-01-99-00052
          for Coverage do not make explicit that medical directors have the authority to take action
          concerning patients attended to by other physicians.4 Moreover, in competitive
          marketplaces, medical directors and attending physicians, if unhappy with a facility, can
          encourage their patients to move with them to another dialysis facility.

Lesson 2. Secure the commitment of attending physicians.

          For their own patients, the attending physicians determine the amount of dialysis, prescribe
          medications, and monitor the ongoing effects of dialysis treatment. In performing these
          roles, the attending physicians have a considerable influence on the quality of care
          provided at dialysis facilities and can influence how well particular facilities fare on
          performance measures.

          Yet, corporate representatives indicate that these attending physicians are not necessarily
          drawn to facility-based performance measures. With their patients in a number of different
          facilities, they may find any one facility’s measurements to be of little relevance to their
          own clinical performance. And, as busy professionals, they may find that they have little
          time to devote to quality improvement efforts for which they receive no additional
          compensation.

          Still the corporations have devised ways to encourage attending physicians to participate
          in facility efforts to improve the quality of care being provided. One approach they use is
          to establish clear standards that attending physicians must meet in order to send their
          patients to the facility. Typically these standards are set forth in the facility’s bylaws.
          Another approach is to provide opportunities for physicians to attend seminars or
          conferences addressing performance measures and quality improvement. Finally, to foster
          a stronger sense of individual physician accountability, two corporations provide
          physician-specific performance reports so that physicians can have data that are more
          relevant to their own practice.

Lesson 3. Collect a broad set of measures.

          Due to the complex nature of end-stage renal disease, it is important to monitor many
          different measures to obtain a better picture of the level of care. Each of the corporations
          collects at least 14 different clinical performance measures. The measures these
          corporations collect are familiar to most renal professionals and capture various clinical
          aspects of dialysis treatment. They include measures that evaluate adequacy of dialysis
          treatment, anemia management, nutritional level, vascular access, bone disease, and
          hypertension

Lesson 4. Revisit the relevance of the measures regularly.

          The measures the corporations collect have changed over time in order to keep pace with
          scientific advances. The corporations stated that if the measures were outdated (i.e., not
          clinically relevant), then physicians, nurses, and other renal professionals would be


Dialysis: Building on the Experiences of the Corporations   5                         OEI-01-99-00052
          time data analysts or statisticians at the central level that regularly monitor the data
          provided by their facilities and some corporations have built in automatic data edits into
          their computer software programs.

Lesson 9. Minimize the data reporting burden.

          Nurses and technicians are busy caring for patients and have little time left over for other
          activities. To help reduce the workload, the corporations collect much of the facility-
          specific data electronically, using several different approaches. Some of the corporations
          have integrated their electronic data systems for quality management with their data
          systems for patient management that nurses and doctors rely upon to provide day-to-day
          patient care. Three corporations obtain the results of lab tests directly from the
          laboratory, thereby eliminating the need for the facility to enter or send the data to a
          central location for analysis.

Lesson 10. Present the performance data in ways that facilitate comparative
assessment.

          All the corporations’ facility-specific reports provide comparisons as a means to help
          gauge the level of quality at that facility. The reports compare a facility to its own past
          performance and to its peers at the regional and national levels. Corporate officials told us
          that comparisons are a big motivator for improvement. They show at-a-glance where a
          facility stands among its peers.

Lesson 11. Provide timely feedback of performance data to dialysis facilities.

          If the data are 2 years old, or even a year old, physicians may tend to view them as
          something that shows a long-term trend that is irrelevant to the care they are providing
          today. According to corporate leaders, the more recent the data, the more likely
          physicians and staff will take them seriously as a reflection of the care they are currently
          providing and make changes in their decision making process. Two of the corporations
          disseminate their facility-specific reports monthly and the remaining three disseminate their
          reports quarterly. By the time the facilities receive their own report, the data is often less
          than 3 months old, and in some cases just weeks old.

Lesson 12. Stress quality improvement projects at the facility level.

          The corporations expect individual dialysis facilities to take the lead in conducting quality
          improvement projects. They look to the facilities to identify problems and to develop and
          implement their own quality improvement projects. Facilities are in the best position to
          know where they need improvement. Furthermore, improvements can only occur if the
          individuals providing the care make changes in their processes. To foster this goal, all the
          corporations have developed training programs and materials for facility staff regarding
          the use of performance measures. These programs and materials help educate nurses and
          physicians about performance measures in general, how to interpret their


Dialysis: Building on the Experiences of the Corporations   7                          OEI-01-99-00052
          facilities’ results, and how to develop a plan of action to improve. The companies conduct
          many of these training sessions in central locations and sometimes the corporations
          conduct specialized training for just one facility.

Lesson 13. Use performance data as a guide to possible performance problems,
not as definitive indicators.

          Corporations use performance measures cautiously, as signals of possible problems. Prior
          to intervening, the corporations seek to verify the concern. They may examine the results
          of recent patient satisfaction surveys, complaints, results of any State surveys, adverse
          event reports, and the current demographics of the patient population. Some corporations
          wait until a definite pattern appears over several months before they will intervene.
          Corporate representatives emphasized that performance measures used in isolation can
          lead to false conclusions on both sides. A facility that fails to meet minimum performance
          standards may in fact be providing high quality care. Similarly a facility that exceeds
          performance goals may be providing inadequate care.

Lesson 14. Intervene with facilities having performance problems in ways likely
to motivate change.

          The corporations begin their interventions with targeted training programs. Often the
          training occurs on site so that corporate officials can review first-hand the practices of the
          facility. Many of the corporate officials believed that training would not only help the
          facility fix its current problem, but also help address problems in the future. If training
          fails, the next level of response is peer review. Corporate officials indicated to us that
          physicians and nurses are more receptive to advice from their regional peers than from a
          person in an executive position. It was rare that they had to resort to punitive actions
          such as firing facility staff, terminating contracts with facility medical directors, or
          revoking attending physician privileges.




Dialysis: Building on the Experiences of the Corporations   8                           OEI-01-99-00052
                             RECOMMENDATIONS
          Similar to the corporations, CMS has systems in place to collect and disseminate facility-
          specific performance measures and their national clinical performance measures have
          shown considerable improvement in the quality of care. The experiences of the
          corporations is of considerable relevance to CMS as it seeks to strengthen its own use of
          facility-specific performance measures. Drawing on the lessons the corporations have
          learned, we make several recommendations to CMS on how it can improve its efforts.

Revise the Medicare Conditions for Coverage for dialysis facilities.

Require facility medical directors to exert leadership in quality improvement.

          The current Conditions for Coverage (Medicare regulations for dialysis facilities) do not
          explicitly require the medical director to take the lead in quality improvement. The
          corporations have learned that, if performance measures are to be used effectively at the
          facility level, someone at the facility must take the lead to ensure that the nurses, attending
          physicians, and the technicians are all attuned to quality improvements. The medical
          director, who typically serves as a member of the facility’s governing body, is in the best
          position to fulfill this leadership role. Without medical directors being fully committed to
          and engaged with quality improvement activities, important opportunities for enhancing
          patient care are likely to be missed.

          CMS should also address in the Conditions what medical directors are expected to do
          when a quality problem is attributable to an attending physician who is not performing
          adequately. It should make clear that: (1) medical directors have the authority to conduct
          or initiate peer review and to address performance problems through directed education,
          and (2) for more serious situations, the medical director’s responsibility to report a
          physician to an authoritative body, such as the End-Stage Renal Disease Network and/or
          the State Medical Board.5

Require dialysis facilities to conduct their own quality improvement projects.

          CMS can give added impetus to such facility-based efforts by enacting a Medicare
          requirement that facilities undertake quality improvement efforts.6 The requirement need
          not stipulate the type of efforts, but should call upon the facilities to draw on performance
          measures, as well as other sources of information, to improve the quality of care provided.
          This expectation should apply even for facilities that have comparatively high performance
          scores. All facilities, it seems reasonable to assume, can do better. Such a mandate need
          not preclude national or regional quality improvement projects; but the corporate
          experience suggests that they should be of lesser significance than those that are facility
          specific.




Dialysis: Building on the Experiences of the Corporations   9                           OEI-01-99-00052
Examine ways to foster the commitment of attending physicians to
performance measures.

          Our review suggests three ways CMS could foster the commitment of attending
          physicians. First, CMS, through its facility oversight agents, the End-Stage Renal Disease
          Networks, should provide educational forums for nephrologists that clearly convey the
          value of performance measures and their relevance to the everyday care of the patient. A
          second direction is to generate physician-specific report cards. One Network, as we noted
          in a prior report, has been doing this since 1997.7 Similarly, two of the dialysis
          corporations provide physician-specific report cards so that physicians can see how their
          performance compares with their peers. A third direction is to more fully address the
          expectations of attending physicians to contribute to and be responsive to quality
          improvement efforts. CMS may want to consider revising the Conditions for Coverage to
          require facilities to have a credentialing process for attending physicians similar to the
          regulations in place for hospitals.8

Develop more effective intervention strategies for dialysis facilities.

          CMS relies on two organizations, each with its own expertise and authorities, to oversee
          dialysis facilities: the End-Stage Renal Disease Networks and the State survey agencies.9
          The Networks have clinical expertise and the States have regulatory authority to enforce
          the Medicare Conditions for Coverage. CMS provides facility-specific data to each that
          can help them identify poorly performing facilities in need of intervention. Even though
          these entities complement one another, we found in our June 2000 report on dialysis
          facilities that the States and the Networks rarely communicate. This breakdown can lead
          to ineffective interventions and limits the available options to address poorly performing
          facilities.10 In order for the States and the Networks to work together more effectively,
          CMS will first need to address issues around confidentiality and liability, which have
          inhibited collaboration in the past.

          CMS may want to consider expanding the sanction options for dialysis facilities that fail to
          comply with the Conditions. Currently, Medicare has very few options, short of
          terminating the facility from the Medicare program, to sanction dialysis facilities. It may
          want to consider seeking the authority to deny Medicare payments to new admissions at
          facilities that fail to meet Medicare Conditions. A similar process is already in place for
          nursing homes.11

Work with corporations to share experiences and minimize burden on
dialysis facilities.

          CMS and its agents, the States and the Networks, have little interaction with the dialysis
          corporations. CMS’ focus has been on the licensed facilities, not the parent corporations.
          Yet, the parent corporations, like CMS, are also engaged in the external quality oversight
          of dialysis facilities. From different vantage points, the two have many of the same


Dialysis: Building on the Experiences of the Corporations   10                        OEI-01-99-00052
          concerns. Our review suggests that it could be beneficial for both parties, and most
          importantly for the patients, for more collaboration and sharing to take place. CMS
          should consider sponsoring meetings and conferences for itself and the corporations to
          share information as well as find ways to share data and information on a routine basis.
          One concrete step that CMS should take is to share its facility-specific data reports
          directly with the relevant corporations.




Dialysis: Building on the Experiences of the Corporations   11                        OEI-01-99-00052
                                                                                             APPENDIX A


                          Glossary of Clinical Performance Measures

          Albumin: A measure of the level of proteins in the blood, used to monitor the level of nutrition.

          Anemia: Inadequate red blood cells, a common concern among dialysis patients that can lead to extreme
          fatigue and other complications.

          Catheter: A type of vascular access. A tube placed in a patient’s blood vessel, primarily used for
          temporary access to the blood stream.

          Clotting events: Arteriovenous fistulas, both native and synthetic, can become clotted with the patient’s
          blood causing complications for the dialysis patient.

          Creatinine clearance: A measure used to determine adequacy in peritoneal patients. Creatinine
          clearance measures the removal of the protein creatine from the body.

          Ferritin level: A measure of the level of iron stored within the body.

          Hematocrit: A measure of the ratio of red blood cells to the plasma volume. Used to monitor anemia.

          Hemoglobin: A measure of the amount of a specific protein in red blood cells that carries oxygen. Used
          to monitor anemia.

          KT/V: A function of the amount of urea removed multiplied by the time on dialysis, divided by the
          volume of urea distribution, or approximately the amount of water in the body. Used to monitor the
          adequacy of the dialysis treatment.

          Native arteriovenous (AV) fistula: A type of vascular access. A patient’s own artery and vein are
          surgically joined to allow arterial blood to flow through a vein, usually placed in the forearm and takes
          several weeks to mature.

          Parathyroid: A hormone that regulates calcium and phosphorus and is used to monitor bone disease.

          Peritonitis: An inflammation of the peritoneum, a membrane that lines the stomach, that can occur in
          individuals receiving peritoneal dialysis.

          Synthetic arteriovenous (AV) graft: A type of vascular access. A synthetic blood vessel is used to
          surgically join the patient’s artery and vein, usually placed in the forearm and takes several weeks to
          mature.

          Transferrin saturation (TSAT): A measure of iron immediately available to produce red blood cells.
          Used to manage and monitor anemia in dialysis patients.

          Urea reduction ratio (URR): A measure of the amount of urea removed during dialysis, as determined
          by pre- and post-dialysis blood urea nitrogen levels. Used to monitor the adequacy of dialysis treatment.

          Vascular access: The point of direct access to the blood stream for hemodialysis. There are three types:
          catheter, native arteriovenous fistula, and synthetic arteriovenous graft.


Dialysis: Building on the Experiences of the Corporations   12                                      OEI-01-99-00052
                                                                            APPENDIX B


                                                            Endnotes

1. Based on figures from, “The Ten Largest Renal Providers,” Nephrology News and Issues,
Vol. 15 No. 8, July 2001 p. 30, and The 2001 USRDS Annual Data Report Reference Tables,
The United States Renal Data System, Section J. Accessed via the Internet at
[http://www.usrds.org/reference.htm].

2. 42 C.F.R. Sec. 405, Subpart U.

3. CMS (Medicare) pays attending nephrologists for routine dialysis care through a monthly
capitation payment.

4. CMS made this clear in a 1998 letter to an ESRD Network: “Significantly, the end-stage renal
disease regulations do not explicitly empower a physician-director with the authority to take
independent action with respect to patients attended by other physicians.” Correspondence to
Glenda Harbert, Executive Director of Network 14, from Kay Hall, Project Officer, Division of
Clinical Standards and Quality, Health Care Financing Administration, on November 9, 1998.

5. The End-Stage Renal Disease Networks, established in 1976, are CMS’ main contractors for
monitoring dialysis facilities. CMS relies on the 18 regional Networks to collect data from
facilities, conduct annual quality improvement projects, and evaluate and resolve complaints. The
main mission of the Networks as set out in the Statute is to ensure “effective and efficient
administration of the benefits” provided under the end-stage renal disease program. Section
1881(c) of the Social Security Act.




Dialysis: Building on the Experiences of the Corporations      13                 OEI-01-99-00052
                                                                             APPENDIX B


6. The minimum standards for dialysis facilities issued by the Texas Department of Health include
one calling for facilities to conduct their own internal quality improvement efforts.

7. Department of Health and Human Services, Office of Inspector General, External Quality
Review of Dialysis Facilities: Two Promising Approaches, OEI-01-99-00051, June 2000.

8. 42 C.F.R. Sec. 482.22.

9. CMS contracts with the State survey agencies, typically within departments of public health, to
conduct on-site Medicare certification surveys of facilities and to investigate complaints, both in
accordance with Medicare Conditions for Coverage for dialysis facilities.

10. Department of Health and Human Services, Office of Inspector General, External Quality
Review of Dialysis Facilities: A Call for Greater Accountability, OEI-01-99-00050, June 2000.

11. 42 C.F.R. Sec. 488.408 (d)(1)(i).




Dialysis: Building on the Experiences of the Corporations   14                     OEI-01-99-00052
